4o~
I

C@OQCKLE

2311 Douglas Street 1 E-Mail Address:
Ou Nebraska 68102-1214 Legal Briefs contact@eocklelegnoies com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19

BARRY CAESAR GARCIA, PETITIONER,
Vv.
STATE OF NORTH DAKOTA, RESPONDENT.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of September, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
Namrata Kotwani John R. Mills
SEYFARTH SHAW LLP Counsel of Record
560 Mission Street Genevie Gold
Suite 3100 PHILLIPS BLACK, INC.
San Francisco, CA 94105 1721 Broadway
Suite 201
Samuel A. Gereszek Oakland, CA 94612
BRUDVIK LAW OFFICE j-mills@phillipsblack.org
2810 19th Ave. S. (888) 532-0897
Grand Forks, ND 58201

Counsel for Petitioner

Subscribed and sworn to before me this 20th day of September, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . |
State of Nebraska . Lv 4

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38714
SERVICE LIST

Birch Burdick

Cass County State’s Attorney
P.O. Box 2806

Fargo, ND 58108-2806
(701) 241-5850
BurdickB@casscountynd.gov
